   June 27, 2003




Acquisition


Summary Report on the
Joint Review of Selected DoD
Purchase Card Transactions
(D-2003-109)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
  424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

DFAS                  Defense Finance and Accounting Service
GAO                   General Accounting Office
GSA                   General Services Administration
OIG DoD               Office of the Inspector General of the Department of Defense
PMO                   DoD Purchase Card Joint Program Management Office
          Office of the Inspector General of the Department of Defense
Report No. D-2003-109                                                        June 27, 2003
   Project No. D2002CM-0117.0001

           Summary Report on the Joint Review of Selected DoD
                     Purchase Card Transactions

                                   Executive Summary

Who Should Read This Report and Why? Policy makers, senior managers, purchase
card program managers, approving officials, and cardholders should read this report to
help improve any deficiencies in the internal control structure of the DoD Purchase Card
Program. This report cites examples of potentially inappropriate and fraudulent use of
purchase cards by DoD cardholders. The potentially inappropriate and fraudulent use
was detected using data mining techniques, which support data mining as a control
mechanism of identifying purchase card transactions with a higher probability of being
fraudulent, wasteful, or abusive.

Background. This report addresses the requirement in section 1007 of the National
Defense Authorization Act for FY 2003 that the Inspector General of the Department of
Defense perform periodic audits of purchase card use. The purchase card is a
commercial charge card available to Federal agencies to pay for official Government
purchases. The DoD Purchase Card Program Office reported that in FY 2002, about
214,000 DoD cardholders used the purchase card to make approximately 11 million
purchases valued at $6.8 billion.

In December 2001, the Office of the Inspector General of the Department of Defense, the
Defense Finance and Accounting Service, and the DoD Purchase Card Joint Program
Management Office agreed to initiate an automated oversight program for determining
whether anomalies that indicate potential fraud, waste, and abuse in purchase card
transactions, could be detected using data mining techniques. Business rules that
identified potentially inappropriate transactions were applied to the millions of purchase
card transactions. The process ultimately resulted in selection of 1,357 purchase
cardholders for an in-depth review. The Office of the Inspector General then provided to
each of the Services and the Defense agency auditors or investigators a cardholder
profile. The profile contained flagged transactions as well as the transactions the
cardholders made from October 1, 2000, through December 31, 2001.

Results. The Services and the Defense agencies performed an in-depth review of
purchase card transactions for 1,357 purchase cardholders identified through data mining
techniques and determined that 182 cardholders potentially used their purchase cards
inappropriately or fraudulently. As a result, the 182 cardholders expended about
$5 million in scarce resources on potentially fraudulent and inappropriate transactions.
To assist program officials in identifying potentially inappropriate and fraudulent
transactions in a more timely manner, data mining techniques should be used as a regular
internal control. By implementing data mining tools, purchase card program officials
will be better able to perform their oversight responsibilities, take appropriate corrective
action in a timely manner, and perform the followup necessary for ensuring that
corrective action taken is appropriate and sufficient. Based on the actions DoD
management has initiated or taken, this report makes no recommendation for corrective
action. With the use of data mining and other management actions, the integrity of the
purchase card program along with confidence in DoD to spend money prudently is
improved.

Ongoing Management Actions. In an effort to address deficiencies in the purchase card
program, the Under Secretary of Defense (Comptroller)/Chief Financial Officer
established in March 2002 a Government Charge Card Task Force that would assess the
DoD purchase and travel card programs and make recommendations for improvements.
Subsequently, the Under Secretary of Defense for Acquisition, Technology, and Logistics
established the DoD Charge Card Special Focus Group to achieve a balance between
streamlining business processes and proper charge card use. An Integrated Product Team
supports the Special Focus Group and is responsible for resolving policy and process
issues related to implementation of the recommendations in the DoD Charge Card Task
Force Final Report. Implementation of the recommendations in the DoD Charge Card
Task Force Final Report should assist in reducing the number of questionable purchase
card transactions discussed in this report.

The DoD Purchase Card Program Office, along with the Navy, also initiated actions that
will strengthen internal controls by increasing the tools available to DoD managers.
Those actions include data mining techniques designed to detect potentially inappropriate
and fraudulent transactions. Specifically, the Navy initiated action to establish an
automated and standardized process for reviewing high-risk purchase card transactions.




                                            ii
Table of Contents
Executive Summary                                 i

Background                                        1

Objectives                                        4

Finding
     Purchase Card Transactions                   5

Appendixes
     A. Scope and Methodology                    12
          Prior Coverage                         13
     B. Scope of Review for DoD Purchase Cards   15
     C. Report Distribution                      16
Background
    Section 1007, “Improvements in Purchase Card Management,” of the National
    Defense Authorization Act for Fiscal Year 2003 (Public Law 107-314,
    December 2, 2002), states:

           That the Inspector General of the Department of Defense . . . [will] perform periodic
           audits to identify--

                    (a) potentially fraudulent, improper, and abusive uses of purchase cards;

                    (b) any patterns of improper cardholder transactions, such as purchases of
                        prohibited items; and

                    (c) categories of purchases that should be made by means other than purchase
                        cards in order to better aggregate and obtain lower prices.

    In December 2001, the Office of the Inspector General of the Department of
    Defense (OIG DoD), the Defense Finance and Accounting Service (DFAS), and
    the DoD Purchase Card Program Management Office (PMO) agreed to initiate an
    automated oversight program that could identify through data mining techniques
    anomalies in purchase card transaction data that might indicate potential fraud,
    waste, or abuse. This summary report discusses the results of the data mining
    effort, the disposition of the referred transactions, and the systemic problems
    related to the DoD Purchase Card Program.

    The Federal Purchase Card Program. The purchase card is a commercial
    charge card issued through a Government contract to Federal agency employees
    to pay for official Government purchases. The General Services Administration
    (GSA) is responsible for the Government purchase card program and in 1989
    awarded the first Government-wide purchase card contract. The goal of the
    purchase card program is to increase the efficiency with which Federal agencies
    can purchase goods and services directly from vendors. Specifically, the purchase
    card (Figure 1) enables agencies to expedite purchases, streamline payment
    procedures, and reduce administrative costs.




    Figure 1. Government Purchase Card



                                              1
The Federal Acquisition Streamlining Act of 1994 established $2,500 as the
threshold for micropurchases and eliminated most of the procurement restrictions
for purchases identified within that threshold. Executive Order No. 12931,
“Federal Procurement Reform,” October 13, 1994, directs that agencies expand
the use of the purchase cards and delegates micropurchase authority to program
officials. In 1995, the Federal Acquisition Regulation designated the purchase
card as the preferred method for paying for micropurchases.
The GSA purchase card program consists of one contract with five banking
vendors, and each agency, according to need, can choose one or more of the
contracts for providing purchase cards to employees of the Federal Government.
The GSA reported that in FY 2001 Government cardholders made more than
24 million purchases valued at $13.7 billion. GSA further reported that by using
the purchase card, the Government saved approximately $1.3 billion annually in
administrative costs, and DoD earned $28 million in rebates.
Purchase Cards in DoD. The Under Secretary of Defense for Acquisition,
Technology, and Logistics is responsible for purchase card policy and oversight,
and coordinates with the Under Secretary of Defense (Comptroller)/Chief
Financial Officer on purchase card-related finance and accounting issues. In
March 1998, the Deputy Secretary of Defense centralized management for the
purchase card program by establishing the PMO as the executive agent for DoD
purchase cards. The PMO reports directly to the Director, Defense Procurement
and Acquisition Policy within the Office of the Under Secretary of Defense for
Acquisition, Technology, and Logistics. The PMO establishes the policies and
procedures for use of the purchase cards within DoD. More specifically, the
PMO coordinates contract requirements with GSA, manages delinquencies,
standardizes purchase card management and reconciliation, and establishes
purchase card training throughout DoD. The PMO reported that in FY 2002,
about 214,000 DoD cardholders used the purchase card to make approximately
11 million purchases valued at $6.8 billion.
Purchase Card Program Responsibilities. DoD Components are responsible
for operating local purchase card programs that support the mission of each
organization. Each Component must appoint an agency or organizational
program coordinator that manages the day-to-day activities and ensures the
overall integrity of the purchase card program. Program coordinators authorize
purchase cards accounts, set spending limits, establish supplementary policies and
procedures, and monitor the use of purchase card accounts. Approving officials
are responsible for authorizing and approving purchases as well as certifying
monthly billings for payment. Both the cardholder and the approving official
must reconcile purchased goods and services with the bank statement before the
invoice can be paid.
Prior Reviews and Identified Systemic Issues. The General Accounting Office
(GAO) issued four reports and participated in three congressional hearings that
relate to the DoD Purchase Card Program. In the reports issued between March
2002 and December 2002, GAO attributed the vulnerability of the DoD Purchase
Card Program for the potentially abusive and fraudulent purchase card
transactions to a weak internal control environment and breakdown of key
internal control activities.


                                    2
Between FY 1996 and FY 2002, IG DoD and the Military Department audit
organizations issued more than 300 audit reports on purchase cards. IG DoD
Report No. D-2002-029, “DoD Purchase Card Program Audit Coverage,”
December 27, 2001, identifies systemic issues in the purchase card program that
include account reconciliation and certification, administrative controls,
management oversight, property accountability, purchase card use, separation of
duties, and training.
Congressional Interest. On October 8, 2002, the U.S. House of Representatives
Committee on Government Reform, Subcommittee on Government Efficiency,
Financial Management, and Intergovernmental Relations held a hearing regarding
purchase card use and abuse. The hearing, the fourth in a series of charge card
hearings, highlighted the need for continued program oversight, implementation
of effective internal controls, and accountability. Senator Charles E. Grassley
challenged the IG DoD to assist DoD with oversight efforts and spoke of a real-
time, continuous, and sustained data mining operation as a means of monitoring
charge card transactions. Senator Grassley stressed that, with constant
surveillance, credit card abuse either will cease or at the very least, be held to a
minimum.
Charge Card Task Force. The Under Secretary of Defense (Comptroller)/Chief
Financial Officer established a Government Charge Card Task Force in
March 2002 for assessing DoD purchase and travel card programs and
recommending improvements. The task force evaluation focused on three key
areas. Those areas of evaluation include management emphasis and
organizational culture, compliance, and process and workforce developments. On
June 27, 2002, the task force issued the DoD Charge Card Task Force Final
Report, which contains 25 recommendations for improving the travel and
purchase card programs. The report recommends strengthening internal controls
and increasing tools available to managers for enforcing the controls, including
the use of data mining technologies that could detect fraudulent or abusive
purchase and travel card transactions.
Data Mining. Data mining is the process that discovers correlations, patterns,
and trends by sifting through large repositories of data using pattern recognition
technologies and statistical techniques. Data mining tools help predict future
trends and behaviors as well as allow businesses to make proactive, knowledge-
based decisions. Used primarily by companies with a strong customer focus such
as retail, financial, communications, and marketing organizations, data mining has
a variety of applications. Data mining is useful for identifying transactions that
have a higher risk of being inappropriate. For example, transactions made by a
medical facility to an upholsterer should be looked at more closely than
transactions the medical facility made to a pharmaceutical supplier.




                                     3
Objectives
    The objective of the joint effort was to determine whether data mining techniques
    led to the identification of potentially problematic transactions. An additional
    objective was to identify ways to both strengthen internal controls and provide
    tools that managers could use for enforcing those controls.




                                        4
           Purchase Card Transactions
           Analysis of purchase card transactions identified that 182 of the
           1,357 cardholders reviewed had potentially used their purchase cards
           inappropriately or fraudulently. The potential misuse occurred because
           DoD did not implement adequate internal controls that would preclude and
           quickly detect potentially inappropriate or fraudulent use. Moreover,
           management lacked tools such as data mining techniques designed to
           maximize existing resources for overseeing the purchase card program and
           identify transactions that have a higher risk for abuse and fraud. As a
           result, the 182 cardholders expended scarce resources of about $5 million
           in transactions that were potentially inappropriate and fraudulent. With
           the use of data mining and other management controls, the integrity of the
           purchase card program along with confidence in DoD to spend money
           prudently is improved.



Joint Purchase Card Project
    In December 2001, the IG DoD, DFAS, and the PMO agreed to begin a joint
    purchase card project that would use data mining techniques to detect purchase
    card transactions that appeared potentially inappropriate or fraudulent and
    warranted additional field research. Purchase card experts from the audit and
    investigative communities met to develop and prioritize indicators that could
    detect anomalies in purchase card transaction data. Those experts coded the
    indicators, and combinations of the indicators were applied to purchase card
    transaction data from July 1, 2001, through December 31, 2001. The process
    resulted in selection of 13,052 purchase card transactions for review. The
    transactions totaled approximately $38.3 million and related to 2,036 DoD
    purchase cardholders.
    The IG DoD then provided to each of the Services and the Defense agencies a
    cardholder profile. The profile contained flagged transactions as well as the
    transactions the cardholders made from October 1, 2000, through December 31,
    2001. Table 1 shows the cardholders and transactions flagged for review as well
    as the scope of work performed by each of the Services and the Defense agencies.




                                        5
            Table 1. Purchase Cardholders and Transactions Selected for Review and
                                      Work Performed

                                                               Total
                                                            Transactions
                  Flagged           Flagged      Related    Available for Cardholders Transactions
   Agency       Cardholders       Transactions Transactions   Review       Reviewed    Reviewed

Army                       922            6,377          196,181          202,558         674         4,624

Navy                       485            2,809          193,699          196,508         282         9,043

Air Force                  492            2,776          116,878          119,654         264         2,625

Other Defense              137            1,090           42,689           43,779         137         1,330

 Total                    2,036          13,052          549,447          562,499       1,357        17,622



Inappropriate and Potentially Fraudulent Transactions
         Analysis of purchase card transactions made by 1,357 DoD purchase cardholders
         identified 182 cardholders that potentially used their purchase cards
         inappropriately or fraudulently. Table 2 shows the results as reported by each
         Service and Defense agency.
            Table 2. Purchase Cardholders with Inappropriate Card Use and Those
                            Referred for Criminal Investigations

                                                  Cardholders

                                                         With
                                                     Inappropriate              Referred to
                                     Reviewed          Card Use                Investigations
              Army                         674                       84                          4
              Navy                         282                       36                          8
              Air Force                    264                       17                         24
              Defense Agencies             137                        4                          5
                Total                    1,357                     141                          41


         Army. The Army Audit Agency and internal review personnel reviewed
         674 cardholders and 4,624 purchase card transactions totaling approximately
         $20.1 million. The Army identified 88 cardholders and 284 transactions valued at
         approximately $520,000 that were potentially inappropriate or fraudulent.
         Examples of reported problems follow.



                                                     6
                 •   A cardholder purchased a Santa suit for $232 with the Government
                     purchase card.
                 •   A cardholder inappropriately rented a vehicle for $910 using the
                     Government purchase card.
                 •   A cardholder accessed possible pornographic sites and sports-related Web
                     sites with the Government purchase card.
           Navy. The Naval Audit Service reviewed 282 cardholders and 9,043 purchase
           card transactions totaling approximately $5.95 million. The Naval Audit Service
           identified 44 cardholders and 7,758 transactions* valued at approximately
           $3.17 million that were potentially inappropriate or fraudulent. Examples of
           reported problems follow.
                •    At a Navy facility, building renovations budgeted at more than $500,000,
                     were paid for with the Government purchase card by splitting the project
                     into smaller transactions to stay below the $2,500 micropurchase
                     threshold.
                •    One Navy cardholder used the Government purchase card to purchase two
                     automobiles, surgical enhancements, and a motorcycle. The cardholder
                     made 59 fraudulent purchases that totaled more than $132,000.
           Air Force. The Air Force Audit Agency reviewed 264 cardholders and
           2,625 purchase card transactions totaling approximately $4.26 million. The Air
           Force Audit Agency identified 41 cardholders and 339 transactions totaling about
           $554,000 that were potentially inappropriate or fraudulent. Examples of reported
           problems follow.
                •    A cardholder purchased personal goods and services such as meals,
                     gasoline, and recreational activities with the Government purchase card.
                     The cardholder made 29 inappropriate or unauthorized purchases that
                     totaled about $6,000.
                •    Unauthorized individuals used Air Force purchase card account numbers
                     for 155 purchase transactions totaling $30,196. The cardholders
                     successfully disputed 118 of those charges, resulting in credits totaling
                     $28,365 (94 percent of the total loss). The transactions included charges
                     to sexually explicit Internet Web sites and Internet gambling sites.
                     Air Force auditors referred the transactions for further review to the
                     Air Force Office of Special Investigation. Air Force Office of Special
                     Investigation officials confirmed that the majority of the charges resulted
                     from theft of the purchase card numbers. The Air Force Office of Special
                     Investigation and Defense Criminal Investigative Service were reviewing



*
    Of the 7,758 transactions the Navy identified as potentially inappropriate or fraudulent, 7,667 transactions
    (99 percent) were related to 8 cardholders referred to investigations from October 1, 2000, through
    December 31, 2001.



                                                        7
           the transactions to determine whether any of the cardholders were
           responsible and whether commercial entities intentionally billed
           fraudulent charges to Air Force purchase cards.
       •   One cardholder split a $9,131 requirement into four separate transactions
           within the same day to purchase new uniforms for military personnel. In
           that instance, the cardholder believed the mission was accomplished but
           disregarded established policy by splitting requirements without review by
           a warranted contracting officer to determine whether lower prices could be
           obtained or to ensure that the purchases met statutory requirements.
    Defense Agencies. The IG DoD and Defense agency personnel reviewed
    137 cardholders and 1,330 purchase card transactions totaling approximately
    $3.11 million. The Defense agencies identified 9 cardholders and 90 transactions
    totaling approximately $840,000 that were potentially inappropriate or fraudulent.
    Examples of reported problems follow.
       •   Data mining techniques identified 6 Washington Headquarters Service
           cardholders and 79 purchase card transactions for review. To obtain
           additional confidence in the audit results, the audit team reviewed
           additional transactions for each cardholder. After questionable
           transactions were identified, nine additional cardholders at Washington
           Headquarters Services were reviewed. The review resulted in $1.7 million
           in fraudulent purchases from May 1999 through August 2002 and at least
           $201,000 in additional abusive, improper, and unauthorized purchases by
           employees. Of those cardholders reviewed, two Washington Headquarters
           Services employees used the purchase card to make about 500 fraudulent
           purchases of goods and services from a company created solely to
           facilitate fraud. DoD did not receive any goods or services from the sales
           charged to the card. The two cardholders plead guilty to the charge of
           theft of Government property. One cardholder was imprisoned and the
           other was sentenced to probation to include home confinement. Both were
           ordered to make full restitution to the Government.
       •   One cardholder used the purchase card 52 times in an 8-week period to
           make a single purchase for more than $551,000. The cardholder
           potentially used the Government purchase card inappropriately to
           circumvent DoD acquisition regulations. The cardholder did so by
           splitting a single purchase into numerous transactions below the
           micropurchase threshold.

Purchase Card Controls and Oversight
    GAO and IG DoD prior audits and reviews identified that inappropriate and
    fraudulent purchase card transactions generally occurred because local
    organizations failed to follow operating policies and procedures for the
    Government purchase card program. Specifically, the overall control
    environment was inadequate, the review and approval process was inefficient, and
    the program monitoring and oversight was ineffective. Management also did not
    dedicate adequate resources that would ensure compliance with internal controls,


                                        8
    and approving officials did not have tools, such as data mining techniques, that
    could identify transactions with a higher risk of being potentially fraudulent,
    wasteful, or abusive.
    DoD management needs to establish and maintain a culture that promotes a
    positive and supportive attitude toward internal controls and conscientious
    management. Such an environment is the foundation for all other control
    standards that provide discipline, structure, and a climate that influences quality.
    To correct purchase card program deficiencies, DoD should as a part of its regular
    control activities implement automated data mining tools for continuously
    monitoring transactions for potentially fraudulent, wasteful, and abusive activity.
    By using data mining to assign risk to individual transactions, managers and
    supervisors are forced to perform their oversight responsibilities, take appropriate
    actions to correct improper use, and perform followup. In addition, the use of
    ongoing monitoring as a matter of normal operations reduces the chance that
    cardholders will act improperly without detection. In recent testimony before the
    Subcommittee on Technology, Information Policy, Intergovernmental Relations,
    and the Census, Committee on Government Reform, House of Representatives,
    GAO supported the need for a continuous monitoring system and identified data
    mining as a critical audit and investigative tool, stating that the results of data
    mining show “real consequence or effect of breakdowns in internal controls.”

Management Actions to Implement a Continuous Monitoring
 Tool
    DoD Improvements During This Review. In March 2003, the Under Secretary
    of Defense for Acquisition, Technology, and Logistics established the DoD
    Charge Card Special Focus Group to achieve a balance between streamlining
    business processes and proper charge card use. An Integrated Product Team
    supports the Special Focus Group and is responsible for resolving policy and
    process issues related to the implementation of the recommendations in the DoD
    Charge Card Task Force Final Report. One task that the focus group undertook
    was to identify practices that would best strengthen internal controls as well as
    increase available tools for managers to enforce internal controls. Part of the task
    included using data mining techniques that could detect purchase and travel card
    transactions with a high risk of being potentially fraudulent or abusive.
    Navy Action. Based on recommendations by the IG DoD, the Navy initiated
    action to address purchase card fraud, misuse, and abuse by establishing an
    automated and standardized process for reviewing high-risk purchase card
    transactions.
    Both the Navy and IG DoD envision a prototype system that would send an
    automated e-mail to the appropriate approving official requesting additional
    information for assessing the appropriateness of a transaction. The approving
    official’s response to questions will populate a database, which can be used for
    reporting trends, identifying deficiencies, and providing data for fraud or misuse
    improvement.




                                         9
               The first phase of the prototype focuses on approving official review of
               cardholder transactions, and the U.S. Marine Corps is field testing a pilot program
               at Camp LeJeune, North Carolina. The prototype system, although being
               developed by the Navy, has applicability throughout DoD.
               Based on the actions the DoD Purchase Card PMO and the Navy have taken or
               initiated, this report makes no recommendations for additional corrective action.
               See Figure 2 for a diagram of the continuous monitoring system.



                                 Bank
                                 Data
                                                                 Data                                          Action
                                                                Mining                                        Required
                            1

1.   Bank (transaction)                                           5.   Transaction and checklist results returned to
     data are extracted,                                               data storage. In further cycles, the information
     transformed, and        Data                                      is also incorporated and utilized in step 2 to
     transported into       Storage                                    look for possible manager collusion. If a
     fraud detection data
     storage location.
                                                      5                pattern of possible collusion is detected,
                                                                       additional notification and report is submitted to
                                                                       higher-level manager for action.




                            2                                                               Web-based
2.   Data mining and
                                                                                             response
     business rules are
     applied against data
                             Data
     to select and subset   Mining
     suspicious                                                                    4.    Approving Officials, Agency
     transactions.                                                                       Program Coordinators, and
                                             E-mail
                                                                             4           managers investigate transactions
                                                                                         and fill out Web-based survey
                                             Reports                                     responses that detail steps for
                                                                                         verifying transactions.




                                                  3
                            3.    Approving Officials, Agency Program
                                  Coordinators, and auditors are notified by
                                  e-mail about suspicious employee transactions.


     Figure 2. Continuous Monitoring System


                                                             10
Conclusion
    The data mining effort identified transactions that were inappropriate or
    potentially fraudulent. Because DoD purchase cardholders continue to misuse the
    purchase card, continuous monitoring of the program is needed to maintain its
    credibility with Congress and the American public as a cost-efficient method of
    procurement. To ensure proper stewardship of the resources, DoD must
    implement effective internal controls and comply with established guidelines and
    standards. We believe effective controls can be facilitated by developing an
    automated oversight program using data mining techniques that can detect
    potentially fraudulent, wasteful, or abusive purchase card transactions. Increased
    surveillance can benefit management, allowing them to focus scarce resources on
    purchase card transactions with a higher risk of being potentially abusive or
    fraudulent. Based on the actions DoD management has initiated or taken, this
    report makes no recommendations for corrective action. The tool can eventually
    be refined and used to develop metrics that will assist management in resolving
    any weaknesses of internal controls as well as take timely action to correct
    deficiencies. Table 3 shows a comparison between the traditional oversight
    method that DoD currently uses and a continuous monitoring approach.
           Table 3. Traditional Oversight versus Continuous Monitoring

     Traditional Oversight Method            Continuous Monitoring Approach
       •   Manual inquiries for              •   Automated e-mails
           documentation                     •   Standard response formats
                                             •   Database format that facilitates data
                                                 mining
       •   Responses often vague with
                                             •   Responses objective
           little value
                                             •   Querying and tracking mechanisms in
                                                 place
                                             •   Automated analysis capabilities


       •   Transactions dated (1 to 2        •   Most recent month’s transactions
           years old)
       •   Top down inquiries                •   Bottom up reporting to approving
                                                 official




                                        11
Appendix A. Scope and Methodology
    We conducted this joint review with the Army Audit Agency, the Naval Audit
    Service, the Air Force Audit Agency, and other Defense agency internal review
    officials. We did not request that the Services or Defense agencies issue separate
    reports or focus on additional causative research.
    For this review, purchase card experts from the audit and investigative
    communities met to develop and prioritize indicators that could detect anomalies
    in purchase card transaction data. DFAS Internal Review coded the indicators,
    and combinations of the indicators were applied to purchase card transaction data
    from July 1, 2001, through December 31, 2001. As a result, we identified for
    review 13,052 purchase card transactions, totaling approximately $38.3 million.
    The 13,052 transactions related to 2,036 cardholders and 1,604 approving
    officials in 752 cities. See Appendix B for the scope of our review of the DoD
    Purchase Card Program based on location. For the purposes of this review, we
    excluded from the purchase card data all nonappropriated fund and overseas
    transactions.
    The IG DoD provided each of the Services and the Defense agencies with a
    cardholder profile. The cardholder profile contained the flagged transactions as
    well as transactions cardholders made from October 1, 2000, through
    December 31, 2001.
    During this effort, we coordinated execution of the review with the Army Audit
    Agency, the Naval Audit Service, the Air Force Audit Agency, and other Defense
    agency internal review officials. We also closely coordinated our efforts with
    personnel from the Defense Criminal Investigative Service, Military Criminal
    Investigative Organizations, the PMO, GAO, and GSA.
    We performed this review from May 2002 through June 2003. Because this
    report is not an audit but is instead a summary of data, we did not meet generally
    accepted government auditing standards nor did we fully meet IG DoD audit
    standards. Specifically, we did not meet the evidence standard as set forth in
    Generally Accepted Government Auditing Standard 6.46 that we have
    incorporated into our audit standards. We were not able to fully verify all the data
    provided and contained in the report, and an experienced auditor having no
    previous connection with this review may have difficulty ascertaining from the
    working papers, evidence that supports the conclusions and judgments. However,
    we believe that the available verifiable information supports the finding and
    conclusions in this report.
    We did not review the management control program because DoD identified the
    purchase card program as a systemic weakness in the FY 2002 Performance and
    Accountability Report. The FY 2002 Performance and Accountability Report
    recognizes that past audit coverage revealed that misuse, abuse, and fraud was
    caused by inadequate DoD emphasis on proper use, poor controls, and lax
    oversight of purchase cards. We did not assess management’s self-evaluation.



                                        12
    Use of Computer-Processed Data. To achieve the objective, we relied on
    computer-processed data from U.S. Bank and Citibank, which were provided to
    us by the Defense Manpower Data Center. The DFAS Internal Review personnel
    applied data mining techniques that identified purchase card transactions with a
    higher probability for abuse and fraud. For example, we identified some
    inconsistencies in the data such as duplicate cardholders, incorrect single
    micropurchase limits, and monthly spending limits.
    Although we relied on the data, we did not perform any formal reliability
    assessment of the computer-processed data. We were, however, able to establish
    data reliability for the information by comparing purchase card transaction data to
    source documentation. The comparison disclosed that the data were sufficient to
    support the conclusions.
    Use of Technical Assistance. We received technical assistance from the Defense
    Manpower Data Center. The Defense Manpower Data Center provided us with
    the cardholder and transaction data from July 1, 2001, through December 31,
    2001. The Defense Manpower Data Center is responsible for maintaining the
    DoD purchase card data, which are organized in three large repositories,
    categorized by transaction, cardholder, and approving official.
    We also received technical assistance from DFAS Internal Review. DFAS coded
    the fraud indicators developed by the subject matter experts and then applied
    those indicators to purchase card transactions that could identify purchases with a
    greater likelihood of being potentially fraudulent or abusive.
    General Accounting Office High-Risk Area. The GAO has identified several
    high-risk areas. This report provides coverage on the DoD high-risk area to
    improve processes and controls to reduce contract risk.

Prior Coverage
    Between FY 1996 and FY 2002, more than 300 audit reports identified a wide
    range of implementation problems in the DoD Purchase Card Program.
    General Accounting Office. GAO issued four reports and participated in three
    testimonies relating to the DoD Purchase Card Program. The most recent reports
    are GAO Report No. GAO-03-292, “Purchase Cards: Control Weaknesses Leave
    the Air Force Vulnerable to Fraud, Waste, and Abuse,” December 20, 2002, and
    GAO Report No. GAO-03-154T, “Purchase Cards: Navy Vulnerable to Fraud,
    Waste, and Abuse but is Taking Action to Resolve Control Weaknesses,”
    October 8, 2002. In addition, GAO issued a report on data mining, GAO Report
    No. GAO-03-591T, “Data Mining: Results and Challenges for Government
    Program Audits and Investigations,” March 25, 2003. GAO reports can be
    accessed in the Internet at http://www.gao.gov.
    DoD Audit Organizations. The IG DoD and audit organizations in Military
    Departments and the Defense agencies issued more than 300 reports on purchase
    cards between FY 1996 and FY 2002. IG DoD Report No. D-2002-0029,
    “Summary of DoD Purchase Card Program Audit Coverage,” December 27,


                                        13
2001, identifies systemic issues with the program. IG DoD Report
No. D-2002-075, “Controls Over the DoD Purchase Card Program,” March 29,
2002, identifies specific risk factors existing in FY 2001 that required more
proactive oversight. IG DoD reports can be accessed on the Internet at
http://dodig.osd.mil/audit/reports. The Military Departments and other Defense
agency reports can be viewed from the DoD Internet Web site at
http://www.defenselink.mil/.




                                   14
Appendix B. Scope of Review for DoD Purchase
            Cards
                      15
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Director, Defense Procurement and Acquisition Policy
     Director, Purchase Card Joint Program Management Office
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Financial Management and Comptroller)
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Commissary Agency
Director, Defense Contract Management Agency
Director, Defense Finance and Accounting Service
Director, Defense Information Systems Agency
Director, Defense Intelligence Agency
Director, Defense Logistics Agency
Director, Defense Threat Reduction Agency
Director, DoD Education Activity
Director, DoD Human Resources Activity
Director, Tricare Management Activity
Director, National Imagery and Mapping Agency
Director, National Reconnaissance Organization
Director, National Security Agency
Director, Washington Headquarters Service



                                          16
Non-Defense Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        17
Team Members
The Contract Management Directorate, Office of the Deputy Inspector General
for Auditing of the Department of Defense prepared this report. Personnel of the
Office of the Inspector General of the Department of Defense who contributed to
the report are listed below.
Colonel William J. Kelley
Lisa M. Such
Brett Ward
William H. Sterling
Michael L. Davitt
Dennis R. Wokeck
Pamela S. Varner
Curtis P. Greene
Justin C. Husar
Angela Kendera
Carol Brink-Meissner
Robert K. West




                                   18
